included in our semi-annual reports to Congress. Please do not hesitate to contact me if you have
any questions.

Background

       The majority of funding provided for Interior programs under the Recovery Act will be
awarded by the Department and its bureaus through contracts and financial assistance
agreements (e.g., grants and cooperative agreements). The Recovery Act establishes unique
requirements for acquisition and financial assistance, such as increased reporting for agencies
and recipients, and emphasizes existing regulations, such as those pertaining to the use of
competition and fixed-price contracts. The Recovery Act also requires the majority of
appropriations be obligated by September 30, 2010, and emphasizes the importance of speedy
awards and implementation. Acceleration of project schedules to meet a June 30, 2010
mobilization milestone underscores this importance.

        Successful planning, administration, and monitoring of acquisitions and financial
assistance awards are critical in order to comply with existing laws and regulations under the
Recovery Act. The Department has been vulnerable in these areas in the past, as described in our
previous advisory, Addressing Past Areas of Vulnerability in Department of the Interior
Programs.3 An increased level of spending amplifies these areas of vulnerability. The
Department spent approximately $6.9 billion in fiscal year (FY) 2008 on contracts and financial
assistance awards and will award up to an additional $3 billion in contracts and financial
assistance under the Recovery Act alone over FYs 2009 and 2010, an increase of almost 50
percent.

The Role of the Office of Acquisition and Property Management (PAM) in Recovery Act
Implementation Policy

       Clear guidance and policy on how to meet Recovery Act requirements, within the
ambitious timeframes, will be a critical factor in helping to ensure consistent and successful
implementation of the Recovery Act. We learned in our meetings with members of each bureau’s
Governance Task Force that confusion exists at the bureau level about who should develop and
oversee the implementation of policy for Recovery Act activities.

       We believe existing roles and responsibilities for policy development and implementation
should be maintained. This approach will assist in clarifying roles and responsibilities for policy
development and reduce the burden on your office.

        The Department of the Interior Manual (112 DM 11.1) states that PAM is responsible for
policy aspects of Department-wide functions related to acquisition and financial assistance. The
PAM office is led by a director, who also serves as the Department’s Senior Procurement
Executive. The Federal Acquisition Regulation (FAR),4 as required by section 16(3) of the
Office of Federal Procurement Policy Act,5 places responsibility with the Senior Procurement
                                                               
   3
     Addressing Past Areas of Vulnerability in Department of the Interior Programs, June 2009 (ROO-ROA-
     MOA-1006-2009). 

   4
     48 C.F.R. § 2.101, Definitions. 

   5
     41 U.S.C. § 414(c). 


                                                                                                          2
    
Executive for “management direction of the acquisition system of the executive agency,
including implementation of the unique acquisition policies, regulations, and standards of the
executive agency.” The Director is also responsible for oversight of the Department of the
Interior Acquisition Regulation System, as well as reviewing, and preparing for issuance, all
Department-wide and bureau-wide acquisition regulations.

        In our advisory, Staffing of the Acquisition and Property Management Office and the
Solicitor’s Office,6 we indicated that, “…not all of PAM’s roles in Recovery Act Implementation
and oversight have been clearly defined yet.” We suggested that, “…the roles to be assumed by
PAM in support of the Recovery Act be specified in greater detail, particularly given oversight
responsibilities of the Department’s Executive Steering Committee and Task Force and of the
bureaus.” Furthermore, we noted there is no official policy regarding the relationship among the
various governing boards, and thus it is unclear how the governing boards relate to one another,
PAM, and the individual bureaus.

        We believe it would be helpful to clarify that Recovery Act activity should continue
within the existing policy framework. Bureaus should follow policy developed and issued by the
PAM Director when the policy pertains to acquisition and financial assistance awards. The roles
and responsibilities of the various governing boards should also be updated and documented.

Acquisition Workforce

         Successful implementation of the Recovery Act depends on an acquisition workforce that
is sufficient in number and has necessary skills, as well as strategies, to address shortfalls in
these areas. We are encouraged that the bureaus have openly identified the challenges to meeting
this goal in their responses to the workforce survey. Such challenges can be addressed more
effectively when they are raised to the appropriate level of attention. We also commend the
Department and bureaus for taking action to address potential shortfalls in the workforce.
Workforce issues should continue to be monitored and addressed throughout Recovery Act
implementation.

        Members of the bureau governance task forces expressed concerns over the ability to
administer contracts and monitor grants after September 30, 2010, the date by which the majority
of Recovery Act funds must be obligated. 7 The results of the contracting workforce survey also
revealed that the bureaus anticipate problems in meeting their customer’s needs as a result of the
additional responsibilities imposed by the Recovery Act. They anticipate delays in obligating
both Recovery Act and non-Recovery Act funds. Specifically, BIA, FWS, USGS and NPS
indicated they do not have sufficient contract staff to award and administer Recovery Act
contracts.

                 	 BIA anticipates it will not be able to meet the contracting needs of its programs.
                    Given the accelerated schedule, this conclusion is even more troubling.


                                                               
   6
     Recovery Oversight Advisory – Staffing of the Acquisition and Property Management Office and the
     Solicitor’s Office, June 2009 (ROO-ROA-MOA-1005-2009). 

   7
     This statement does not apply to BOR or the Office of Inspector General. 


                                                                                                         3
    
                 	 FWS identified the risk of not obligating all Recovery Act funds by the deadline
                    of September 30, 2010. Mobilization of projects by June 30 would seem to be
                    even more problematic

                 	 USGS officials anticipate delayed award periods, greater reliance on technical
                    staff to assist in the development of requirements documents, and reduced pre-
                    award preparation and review. These challenges could result in greater risk that
                    awards made will require modification and increased administration.
                    Implementation of policy initiatives could also be delayed, and USGS officials
                    expect an increase in funding carried over in FY 2009/2010.

                 	 NPS officials stated that lack of sufficient contracting support personnel to
                    obligate Recovery Act funding by September 30, 2010, may result in delays in the
                    acquisition process. It seems NPS’ concern would be amplified given the
                    accelerated schedule for mobilizing Recovery Act projects. If Recovery Act
                    contract awards take precedence to meet the accelerated schedule, some non-
                    Recovery Act projects may require rescheduling.

        BLM and BOR reported having sufficient staff to meet Recovery Act requirements but at
the expense of customer service on awards made under annual appropriations and at increased
risk and cost to each bureau.

                 	 BLM officials expressed concern about the impact of the increased workload,
                    cost, and risk resulting from the demand of completing Recovery Act projects.
                    They stated that non-Recovery Act projects will not be processed as planned,
                    which could delay start and completion of those projects. They anticipate a
                    negative impact on contract management of previously issued contracts and a
                    reduction in project oversight. They also expect increases in overtime and
                    increased costs due to hiring contractors and retired annuitants to mitigate
                    workload impact now through September 30, 2010. Finally, they anticipate that
                    less experienced 1102s (contracting officers) will be working on projects that may
                    be above their level.

                 	 BOR officials believe the increased workload from Recovery Act projects may
                    result in excess workload demands, increasing credit hours, compensation time,
                    and overtime. They anticipate burnout, reduced productivity and morale, reduced
                    quality, increased errors, and delays in processing. Given the current status of the
                    acquisition workforce Government-wide, the ability of the regional offices to
                    meet Recovery Act demands remains a concern and may change as a result of
                    attrition or movement of critical personnel.

       Implementation plans submitted by BLM, FWS, USGS, BOR, and NPS (in draft) to the
Department indicate these bureaus completed a systematic approach to acquisition workforce
planning to address the challenges articulated in the survey.8 USGS identified specific hiring
timelines and budgets, and FWS and BOR indentified the number of new positions they intend to
                                                               
   8
       We did not independently verify the information provided in the plans. 

                                                                                                           4
    
fill. Bureaus also quantified the number of additional contracting personnel they intend to hire in
their responses to the acquisition workforce survey. Table 1 details the numbers by bureau.




                                         Bureau          Number

                                      BIA                    15

                                      BLM                    31

                                      BOR                    18

                                      FWS                    21

                                      USGS                   6

                                      NPS                    29

                                 Table 1. Acquisition Workforce Hiring Plans

It is unclear from the data if these new hires will work exclusively on Recovery Act projects.
Increasing the size of a trained, qualified acquisition workforce can assist bureaus in handling
work completed with both Recovery Act appropriations and annual appropriations.

        We are encouraged by the analysis and actions taken by some bureaus. We recognize the
immense pressure the contracting workforce is under to meet heightened awarding and
accountability expectations under the Recovery Act, while also maintaining current operations.
If the actions bureaus are currently planning prove to be insufficient in addressing potential
shortfalls and challenges in implementing Recovery Act projects, then delays could result in
obligating funds, making awards and accelerating implementation of projects. Insufficient
staffing levels could also result in ineffective oversight extending beyond September 30, 2010.

       Other strategies should be established if existing plans fail to meet hiring needs and
workload demands. These plans may require a Department-wide approach or coordination
among bureaus to help prevent problems such as burnout and address anticipated problems such
as decreased oversight.

           	 Bureaus with Recovery Act funds could establish agreements with offices,
              bureaus, and other Departments that do not have Recovery Act funds, such as the
              National Business Center, the Office of Surface Mining, and the Minerals
              Management Service. While concerns exist over potential fees charged by these
              entities, we encourage further discussion on potential flexibility in fee structures,
              recognizing the Recovery Act’s focus on reducing administrative costs and
              creating jobs. Any funding provided to another agency, bureau, or office that did


                                                                                                      5
    
       not receive Recovery Act funds should be spent in compliance with the
       requirements of the Act and implementing policy and guidance.

    	 Bureaus could use properly structured Indefinite Delivery Indefinite Quantity
       (IDIQ) contracts to expedite the acquisition process. Bureaus could award task or
       delivery orders for specific goods or services and provide a means to streamline
       the contracting process. For example, bureaus must ensure they do not circumvent
       competition requirements under the Recovery Act or the Competition in
       Contracting Act of 1984, which requires agencies to use competitive procedures
       to ensure full and open competition when meeting requirements through
       procurements. In structuring the original procurement (i.e. the IDIQ contract),
       bureaus should specify requirements at a level of detail and specificity to allow
       potential vendors to determine if they want to perform the work under the IDIQ
       contract and to provide a basis for quoting prices. Bureaus should also ensure task
       or delivery orders under the award are within the scope of the underlying contract.
       We have discussed our concerns regarding the use of IDIQ contracts with the
       Department particularly for new construction projects and remain involved in the
       oversight of these contracts particularly since they offer a potential way to assist
       in the accelerated mobilization of projects. In response to our concerns, the
       Department has modified some of their approaches to using IDIQs to minimize
       risks during selection and subsequent performance of contractors.

    	 Bureaus could consider contracting appropriate acquisition workforce functions.
       They would have to be careful, however, not to construct the contracts as personal
       services contracts. FAR 37.104 states:

                   A personal services contract is characterized by the
                   employer-employee relationship it creates between the
                   Government and the contractor’s personnel. The
                   Government is normally required to obtain its employees
                   by direct hire under competitive appointment or other
                   procedures required by the civil service laws. Obtaining
                   personal services by contract, rather than by direct hire,
                   circumvents those laws unless Congress has specifically
                   authorized acquisition of the services by contract.

       The following elements assist in assessing whether a proposed contract is
       personal in nature: location of performance, control over the functions involved,
       if the services are applied directly to an integral part of the agency, and the length
       of time of the contract.

       The bureaus would also have to address potential organizational conflicts of
       interests (e.g., the contractor cannot work on the scope of work and bid on the
       solicitation; FAR 9.5) and ensure that the functions are not inherently
       Governmental (in violation of FAR 7.5).



                                                                                            6
 
       The Department, bureaus, contracting offices, and contracting officers will need to
determine which strategies are appropriate for the needs of the office and the specific
requirement, and how to ensure compliance while also meeting challenging workloads and
expectations for the timing of awards. Efficiency in the acquisition process can also be enhanced
through ongoing communications among requiring offices, contracting offices, and when
necessary, the bureaus and Department.

        The Department and bureaus will also need to plan for continued administration and
monitoring of their regular appropriations. Adequate oversight will be critical in ensuring
effective performance and reducing the potential for fraud, waste, or misuse of funds. The
Department and bureaus should develop plans in a timely manner, so they have ample
opportunity to address this challenge.

cc:       Deputy Secretary, Department of the Interior
          Assistant Secretary – Policy, Management and Budget
          Director, Office of Acquisition and Property Management
          Director, Office of Financial Management
          Departmental GAO/OIG Audit Liaison
          Audit Liaison, Office of the Secretary
          Audit Liaison, Bureau of Land Management
          Audit Liaison, Bureau of Reclamation
          Audit Liaison, Indian Affairs
          Audit Liaison, National Park Service
          Audit Liaison, U.S. Fish and Wildlife Service
          Audit Liaison, U.S. Geological Survey
          Recovery Coordinator, Bureau of Land Management
          Recovery Coordinator, Bureau of Reclamation
          Recovery Coordinator, Indian Affairs
          Recovery Coordinator, National Park Service
          Recovery Coordinator, U.S. Fish and Wildlife Service
          Recovery Coordinator, U.S. Geological Survey




                                                                                                7
       
          



                                                     


                       Report Fraud, Waste, and 
  
                          
                           Mismanagement


                                                       
                                 Fraud, waste, and mismanagement in
                             government concerns  everyone: Office of
                                 Inspector General staff, Departmental
                         employees, and the general public. We actively
                         solicit allegations
                                                of any inefficient and wasteful
                                  practices, fraud, and abuse related to
                              
                           Departmental       or Insular Area programs and
                          operations. You can report allegations to  us in
                                               several  ways.
                                                     
                                                         
                                                     
                                                     
                  By Mail:  	          U.S. Department of the Interior  
                                       Office of Inspector General  
                                       Mail Stop 4428 MIB  
                                       1849 C  Street, NW
                                       Washington, D.C. 20240  
                   
                  By Phone :  	        24‐Hour Toll Free	                800‐ 424‐5081   
                                       Washington Metro Area             703‐ 487‐5435   
                   
                           	  
                  By Fax:	             703‐487‐5402  
                   
                  By Internet:		       www. doioig.gov/hotline
               




                                                                                             
